GR-50-99-005
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
Mishawaka Police Department, Mishawaka, Indiana
Award Numbers 95-CF-WX-3579 and 97-CM-WX-1078 
GR-80-99-005
 
December 22, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Mishawaka Police Department (MPD). The MPD received
grants of $900,000 to hire or rehire twelve additional sworn police officers under the
Funding Accelerated for Smaller Towns (FAST) and Universal Hiring Program (UHP). The MPD
also received $79,158 under the Making Officer Redeployment Effective (MORE) program but
had not incurred costs under the program. The purpose of the additional officers,
civilians, and equipment's funding was to enhance community policing efforts.
In brief, our audit determined the MPD:


Will not be able to use all grant funding due to the inability to fill grant positions
    in a timely manner, resulting in funds of $171,125 that could be put to better use. 


Generally did not file grant reports on a timely basis. 

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####